      Department of Homeland Security




     U.S. Citizenship and Immigration Services Systematic 

      Alien Verification for Entitlements Program Issues 





OIG-12-125                                   September 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                    September 19, 2012

MEMORANDUM FOR:               Tammy Meckley
                              Deputy Associate Director, Enterprise Services Directorate
                              United States Citizenship and Immigration Services

FROM:                         Frank Deffer
                              Assistant Inspector General
                              Information Technology Audits

SUBJECT:                      U.S. Citizenship and Immigration Services Systematic Alien
                              Verification for Entitlements Program Issues
 

Attached for your information is our final letter report, U.S. Citizenship and Immigration 

Services Systematic Alien Verification for Entitlements Program Issues. We incorporated 

the formal comments from the United States Citizenship and Immigration Services in the 

final report.
 

The report contains two recommendations aimed at improving the Systematic Alien 

Verification for Entitlements Program. Your office concurred with Recommendation 1 

and did not concur with Recommendation 2. As prescribed by the Department of 

Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of 

Inspector General Report Recommendations, within 90 days of the date of this 

memorandum, please provide our office with a written response that includes your 

1) agreement or disagreement, 2) corrective action plan, and 3) target completion date 

for each recommendation. Also, please include responsible parties and any other 

supporting documentation necessary to inform us about the current status of the 

recommendation. Until your response is received and evaluated, the recommendations 

will be considered open and unresolved. 

 

Consistent with our responsibility under the Inspector General Act, we are providing 

copies of our report to appropriate congressional committees with oversight and 

appropriation responsibility over the Department of Homeland Security. We will post 

the report on our website for public dissemination. 

 

 

Major contributors to this report are Sharon Huiswoud, Director; Kevin Burke, 

Supervisory Auditor; Matthew Worner, Senior Auditor; Charles Twitty, Senior Auditor; 

and Pamela Chambliss-Williams, Senior Program Analyst. 

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Please call me with any questions, or your staff may contact Sharon Huiswoud, Director,
   at (202) 254-5451.

   Attachment




www.oig.dhs.gov                               2                                     OIG-12-125
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   In response to U.S. House of Representatives Committee on Appropriations
   Report 112-91, Department of Homeland Security Appropriations Bill, 2012, we
   conducted an audit of the business processes of the Systematic Alien Verification for
   Entitlements (SAVE) program. The objectives of our review were to determine whether
   USCIS had established processes to (1) monitor user compliance with the rules of the
   SAVE program, (2) enforce actions when users were noncompliant with SAVE program
   rules, and (3) enable benefit applicants to request record corrections.1 Additionally, our
   objectives included a review to determine the average length of time USCIS took to
   adjudicate requests by applicants who received a possibly erroneous SAVE
   determination.2

   SAVE is an electronic system to provide immigration status to Federal, State, and local
   agencies that award various public benefits such as drivers’ licenses, public housing
   subsidies, and Federal education grants. However, SAVE does not make determinations
   on any applicant’s eligibility for a specific benefit or license. In April 2012,
   approximately 1,000 agencies were registered to use SAVE.

   The legacy Immigration and Naturalization Service created the SAVE program in 1987 in
   response to the Immigration Reform and Control Act of 1986, P.L. 99-603. This law
   required the creation and implementation of a verification system that confirms the
   immigration status of individuals applying for certain federally funded benefits. With
   the creation of the Department of Homeland Security (DHS) in 2003, jurisdiction for the
   SAVE program is now under the USCIS Verification Division.

   Additional Federal legislation expanded the need for benefit-granting agencies to verify
   immigration status. For example,

       •   The Illegal Immigration Reform and Immigrant Responsibility Act of 1996,
           P.L. 104-208, requires USCIS to respond to inquiries by Federal, State, and local
           benefit-granting agencies seeking to verify immigration status or naturalized or
           derived citizenship of an individual for any lawful purpose.




   1
     According to USCIS officials, SAVE and the SAVE Monitoring and Compliance Section do not engage in
   enforcement actions; rather they identify non-compliance and work with agencies to gain compliance.
   2
     According to USCIS officials, the SAVE program does not “adjudicate” SAVE cases. At USCIS, only
   members of the Officer Corps have the authority to adjudicate cases. Record corrections do not
   inherently involve an adjudication.


www.oig.dhs.gov                                       3                                            OIG-12-125
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       •   The Personal Responsibility and Work Opportunity Reconciliation Act of 1996,
           P.L. 104-193, restricts immigration status eligibility criteria for certain programs
           funded by Federal, State, and local government agencies.

       •	 The REAL ID Act of 2005, P.L. 109-13, extends the mandate to verify immigration
          status to include all departments of motor vehicles issuing drivers’ licenses.

   SAVE Verification Process

   Following the completion of a registration process, staff from an authorized SAVE user
   agency are able to query a benefit applicant’s immigration status against DHS databases
   containing more than 100 million records. USCIS processed approximately 12 million
   SAVE queries in fiscal year 2011. According to USCIS, there was an average of 935,793
   SAVE initial verifications per month during June to August 2010. This initial verification
   step usually requires only 3 to 5 seconds. Further, this initial query about a benefit
   applicant’s immigration status is document centric; that is, the SAVE system searches
   specific databases based on the immigration document that was submitted by the SAVE
   user agency. Throughout fiscal year 2010, more than 94 percent of cases that provided
   immigration status did so without requiring additional verification. SAVE user agencies
   are charged a minimum of $25 to access SAVE each month, plus $0.50 for each initial
   verification query. However, there is no monthly charge if a SAVE user agency does not
   submit SAVE queries.

   If the initial verification query cannot be resolved, SAVE user agencies are to perform
   additional verification steps. The additional verification is biographic centric. That is,
   SAVE searches the various databases based on the benefit applicant’s personal
   information, such as immigration numeric identifier or name and date of birth. This
   additional verification may be performed automatically, or following submission of
   additional data by the SAVE user agency. There is a $0.50 fee for each additional
   verification query.

   If the benefit applicant’s immigration status cannot be confirmed following additional
   verification, the SAVE program instructs the user agency to provide additional
   documentation for third step verification. There is no fee for third step verification.
   However, if the documentation is submitted without performing the first and additional
   query steps, there is a $2 fee. The different SAVE program fees resulted in $6 million in
   fiscal year 2010 and provide 25 percent of the funding of the SAVE program.




www.oig.dhs.gov                                  4	                                       OIG-12-125
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
   USCIS’ Process To Monitor User Compliance With the Rules of the SAVE Program

   USCIS has established a process to monitor compliance with the rules of the SAVE
   program. Per the SAVE program Memorandum of Agreement, the program rules
   require—

       •	 The user agency staff to take the SAVE training before using the system,

       •	 The user agency to pay any SAVE-related charges within 30 days or be assessed
          late fees,

       •	 Performance of any additional verification procedures documented in the SAVE
          program guide and the web-based tutorial, and

       •	 The user agency to allow USCIS’ SAVE Monitoring and Compliance Section access
          to all records related to the use, or improper use, of SAVE.

   USCIS established the SAVE Monitoring and Compliance Section to monitor agency
   compliance with the above program rules. Additionally, USCIS established the
   Integrated Monitoring Task Force to help identify specific behaviors of the user
   agencies, such as failure to deactivate SAVE user accounts. The Monitoring and
   Compliance Section, in conjunction with the Verification Division SAVE Program, has
   written technical manuals and standard operating procedures for monitoring agency
   compliance with SAVE program rules.

   The USCIS Verification Division prepares and provides SAVE-related training to user
   agencies. For example, the SAVE tutorial provides information on the cost of queries,
   documentation needed from the applicant, how to complete various screens, and the
   roles and responsibilities of SAVE users.

   Enforcement Actions When Agencies Are Noncompliant With SAVE Program Rules

   USCIS’ Verification Division has established procedures to take when user agencies are
   non-compliant with SAVE program rules. For example, when SAVE user accounts have
   been inactive for a year, USCIS notifies the user agency of the inactive accounts.
   According to USCIS staff, 158 SAVE user agencies have been contacted about inactive
   user accounts. Additionally, if a SAVE user agency has not paid its bills on time, USCIS




www.oig.dhs.gov                                5	                                     OIG-12-125
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   charges late fees and penalties. As of May 2012, 71 SAVE user agencies were 60 days
   overdue, for a total of $622,497 in fees, interest, and penalties.

   Further, USCIS’ policy requires that if user agencies do not adhere to SAVE program
   rules, SAVE access may be suspended or terminated. However, according to USCIS staff,
   restricting or terminating access to the SAVE program would have a negative effect on
   benefit applicants. Specifically, if user agencies do not have access to SAVE, they may
   not be able to verify a benefit applicant’s immigration status. If user agencies cannot
   verify immigration status, they may not be able to award the benefit.

   USCIS Process To Ensure That Benefit Applicants Can Correct Their Records

   USCIS has established a process to help benefit applicants correct their records that
   were used in the SAVE verification process. Additionally, USCIS has distributed a fact
   sheet to user agencies that specifies how SAVE benefit applicants can contact USCIS
   when they want to correct their records. Further, USCIS plans to update its public web
   pages to assist SAVE benefit applicants further. However, USCIS can do more to assist
   applicants in correcting their records. Specifically, the Verification Division should
   request that database owners report whether the applicant’s records were corrected.

   For example, if a Verification Division review of a benefit applicant’s documentation
   determines that a USCIS database contains erroneous information about that applicant,
   the Verification Division notifies the USCIS Records Division about the error and
   provides a positive verification. However, according to USCIS officials, the Verification
   Division is not required to follow up with the Records Division to determine whether the
   record was corrected.3 Also, the Verification Division is not required to inform benefit
   applicants that there was an error in their USCIS records.

   Additionally, SAVE accesses databases that are owned by U.S. Customs and Border
   Protection (CBP). For example, a CBP database accessed by SAVE contains the data
   from the Arrival-Departure Record, CBP Form I-94. When an error is identified in a CBP
   database, USCIS instructs the SAVE user agency to notify the benefit applicant to contact
   CBP. However, according to USCIS officials, the Verification Division is not required to
   follow up with CBP to determine whether the record was corrected.




   3
    According to USCIS officials, the Verification Division’s authority to provide immigration status is
   between USCIS and the SAVE user agency, not the benefit applicant; the Verification Division does not
   have the authority to require database owners to correct records.


www.oig.dhs.gov                                       6                                             OIG-12-125
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Average Length of Time To Adjudicate Applicant Requests To Correct Erroneous
   Information

   USCIS staff do not collect information that would enable them to determine the average
   length of time required to adjudicate applicant requests to correct erroneous
   information. For example, USCIS does not track the number of SAVE-related
   appointments made through its InfoPass scheduling website. USCIS cannot calculate
   the average time needed to resolve SAVE-related queries without knowing how many
   SAVE benefit applicants have contacted USCIS. 4 However, we obtained information on
   95 SAVE benefit applicant queries that were referred to USCIS. USCIS resolved these
   queries in an average of 8.9 calendar days.

   Officials from the Verification Division said that they plan to track SAVE benefit applicant
   requests and referrals with a customer relationship management system capability that
   will be implemented by August 2013.


   Recommendations
   We recommend that the Deputy Associate Director, Enterprise Services Directorate:

   Recommendation #1:

   Implement a process to compile and track SAVE benefit applicant requests and referrals.

   Recommendation #2:

   Implement a process for SAVE database owners to report to the Verification Division
   whether changes to SAVE benefit applicant records were made.

   Management Comments and OIG Analysis
   We obtained written comments on a draft of this report from the Director of USCIS. We
   have included a copy of the comments in their entirety at appendix B. The Director of
   USCIS concurred with the first recommendation and did not concur with the second
   recommendation. We also obtained informal technical comments from SAVE program
   officials that we addressed in the report where appropriate.


   4
    According to USCIS officials, a “query,” in the context of the SAVE program, is a verification request from
   a User Agency and is not used by the SAVE program to refer to inquiries from benefit applicants.


www.oig.dhs.gov                                         7                                              OIG-12-125
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Recommendation #1

   USCIS concurs with this recommendation. Additionally, USCIS provided further
   information on planned improvements. These improvements include the
   implementation of the SAVE Case Check initiative and a Customer Relationship
   Management (CRM) system. The SAVE CASE Check initiative will enable SAVE benefit
   applicants to check the status of their case online. Additionally, the initial phase of a
   CRM system will track and monitor SAVE inquiries.

   OIG Analysis

   The actions described satisfy the intent of this recommendation. This recommendation
   is considered resolved, but will remain open until USCIS provides documentation to
   support that the planned corrective actions are completed.

   Recommendation #2

   USCIS did not concur with this recommendation. According to USCIS, SAVE is not the
   owner or custodian of the immigration records it uses to determine immigration status,
   some of which are outside of USCIS control, and it does not have the legal authority to
   require database owners to report corrections to applicants’ records to the SAVE
   program. However, USCIS also listed steps they could take to identify whether record
   changes have been made. For example, Quality Assurance audits conducted by the
   USCIS Verification Division could inform USCIS leadership of common data errors and
   the need for policy and process changes. Additionally, the SAVE program may be able to
   leverage the CRM system to track benefit applicant queries as described in the response
   to Recommendation 1.

   OIG Analysis

   USCIS is the owner of some of the databases accessed by SAVE. USCIS should be able to
   develop internal procedures to report to the SAVE program whether USCIS records have
   been changed. Additionally, USCIS enters into agreements with other components for
   SAVE access to their databases. USCIS could use these agreements as a basis for
   establishing change reporting processes with other DHS components. This
   recommendation is considered unresolved and will remain open until USCIS provides
   documentation to support the implementation of corrective actions.




www.oig.dhs.gov                                 8                                       OIG-12-125
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We performed an audit to determine whether USCIS established programs and
   processes to: (1) monitor user compliance with the rules of the SAVE program,
   (2) enforce actions when users were noncompliant with SAVE program rules, and
   (3) enable benefit applicants to request record corrections. Additionally, our objectives
   included a review to determine the average length of time USCIS took to adjudicate
   requests by applicants who received a possibly erroneous SAVE determination. Our
   audit focused on the requirements outlined in U.S. House of Representatives Committee
   on Appropriations Report 112-91, Department of Homeland Security Appropriations Bill,
   2012. We reviewed DHS and USCIS guidance and procedures. We also interviewed
   various DHS personnel regarding SAVE. Additionally, we interviewed staff from several
   SAVE user agencies concerning their use of SAVE.

   We conducted this performance audit between April and July 2012 pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               9                                      OIG-12-125
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report
                                                                                      U.S. n t.lll1 r tmfllt ur II /l md:lIld Sf( uril~
                                                                                      U.S. Cit izenship IIncl lmmigml iGn Services
                                                                                      Office ()/Ihe Direcfr}r MS-2000
                                                                                      WQsh"glon, DC 20529-2000


                                                                                      u. S. Ci tizenshi p
                                                                                      and Immigration
                                                                                      Services



              SEP 13 1011

              Memorandum
              TO:         Frank DetTer
                          Assistant Inspector Gen~
                                                 al ' Infonnat i
                                                                j:7 Tee     ogy Audits

              FROM:       Alejandro N. Mayorkas
                          Director

              SUBJECT: Office oflnspeelor Genera l (010) Drafl Reporl: US. Citiztmship and Immigrati()n
                       Service's (USCIS) Systematic Alien Verification/or Entitlements (SA VE) Program
                       Issues (job code OIG~12-J34) ~ FOUO


              USCIS appreciates the opportunity to respo nd and general ly agrees with the O IG summary o f the
              issues ident ified in the report . USCIS OJncurs that the SAVE prol:,Tfam has established processes
              to monitor user compliance w ith the policies of the SAVE program and follows up when users
              are noncompliant with SAV E program requirements. USC IS also agrees that the SAVE program
              enables benefit applicants to request record corrections, but is concerned about USCIS's scope of
              authority to cany out some of the recommendatio ns because USCIS io;; not the custodian of all n f
              the databases accessed by SAVE.

              USCIS would like to highlight our demonstrated commitment to transparency fo r SAVE benefit
              applicants and our efforts to ensure that SAVE user agencies comply w ith program requirements.
              USCIS IS launching several majo r initiat ives to provide better access to information to support
              benefit seeking applicants, such as the SAVE Case Check init iative, which a llows applicants
              seekillg benefils to obtain inf(mnatwm 1m lhl! stl:ltus or their SAVE cases. The SAVE Case
              Chcck initiative will be available on September 15, 2012, with a phased roll-o ut to customers
              planned for a several month period during the 1st Quarter of Fiscal Year 2013. SAVE Case
              Check is a free service to benefit applicants and will save the applicant s time by reducing repeat
              visits to a benefit-granting agency. USCIS aL'io recently launched the fi rst phasl! 0 r a Customer
              Relationship Management (CRM) s)'stem that prov ides a mechanism for tracking and managing
              all incoming SA VE~re lated calls and inquiries. USC IS recently developed a pilot between
              USCI S Field Offices and SAVE program staff to faci lita te benefit applicant requests that may
              require a visit to a USCIS field office. And in FY 20 J 2, the SA VE program released the SA VE
              Self-Assessment Guide to educate user agencies and help them co mply wit h SAVE program
              requirements.




                                                                                      \\"W"". t1 sri~ .go \.




www.oig.dhs.gov                                               10                                                                          OIG-12-125
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              010 Draft Report: USCIS', SAVE Program Issue, (job code 010-12-134) - FOUO
              Page 2

              Although our responses to the recommendations are outlined below in detail, USCIS would also
              like to clarify that the SAVE prognun does not "adjudicate" SAVE cases. At USCIS, only
              members of the Officer Corps have the authority to adjudicate cases. The SAVE program is only
              responsible for determining whether the information submitted by the SAVE user agency on
              behalf of the benefit applicant is consistent with the data found in federal databases. Further, the
              SAVE program does not engage in enforcement activities but identifies non-compliance and
              assists agencies as necessary.

              And finally, another area in the OIG report that users would like to address is the finding that
              the SAVE program is not required to inform benefit applicants that there was an error in their
              record. This is because our current authority to confum immigration status is between USCIS
              and the SAVE user agency, not between USCIS and the benefit applicant. However, under
              current practice we do advocate on behalf ofthe benefit applicant ifthere is a record change or
              update that we can do in coordination with other parts of USC IS and, if contacted by a benefit
              applicant, we will refer the benefit applicant to the appropriate USCIS or Department of
              Homeland Security (DHS) component.

              DBS OIG recommends tbat tbe Deputy Associate Director, Enterprise Services
              Directorate:

              Recommendation 1: Develop a process to compUe and track SAVE benefit applicant
              requests and referrals.

              USCIS response: USCIS concurs with this recommendation. Although the process is not yet
              formalized, the SAVE program does take inquiries from benefit applicants through its customer
              support hotIine publicized on the SAVE website. Benefit applicants can ask questions relating to
              the status of their SAVE verification case, or ask general questions about the program
              Questions regarding the status ofthe benefit that the applicant applied for are referred back to the
              federa~ state or local agency where the individual applied. The above-mentioned SAVE Case
              Check initiative will also help to reduce telephone inquiries ofthis nature, as benefit applicants
              will be able to check the status of their case online.

              USCIS also just launched the initial phase ofa CRM system that will track and monitor SAVE
              inquiries and the SAVE program will develop a plan for a dedicated benefit applicant hotIine, to
              be used in conjunction with the CRM tracking and monitoring effort. A dedicated benefit
              applicant hotJine is necessary to allow the SAVE program to leverage CRM to better track
              benefit applicant inquiries and redirect calls to other parts of USC IS ifrecord follow-up is
              necessary. However, the implementation of this plan is contingent on the SAVE program
              obtaining additional resources to develop the capability and implement the boUrne necessary to
              leverage CRM.

              Recommendation 2: Develop a process for SAVE database owners to report to the
              Verification Division whether cbanges to SAVE benefit applicant records were made.

              USCIS response: USCIS non-concurs with this recommendation. SAVE is not the owner or
              custodian of the immigration records it uses to determine immigration status, some of which are




www.oig.dhs.gov                                               11                                                     OIG-12-125
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



              OIG Draft Report: USCIS's SAVE Program Issues (job code 0IG-12-13I/) - FOUO
              Page 3

              outside of USC IS control, and does not have the legal authority to require database owners to
              report back to the SAVE program. Each database has policies and procedures in place that allow
              staff to determine how to address data errors or updates and often the SAVE program andlor
              USCIS will not have any oversight. Whether or not the SAVE program is aware of when a
              record is updated does not address the root cause of data accuracy. Other efforts, such as looking
              at the results of Quality Assurance (QA) audits conducted by the USCIS Verification Division,
              could infollll USCIS leadership of common data errors and the need for policy and process
              changes. However, the SAVE program will develop a process to track USCIS record correction
              responses or updates as part of the plan to leverage the CRM system to track benefit applicant
              queries as described in the response to Recommendation I . USCIS will detennine how best to
              track these actions and consolidate any contacts made with the SAVE program by the benefit
              applicants in question.




www.oig.dhs.gov                                             12                                                     OIG-12-125
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Director of USCIS
   USCIS Audit Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  13                        OIG-12-125
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
